March 26, 2002

CHARLES E. BRAVO
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

ROBERT L. OTTO
VICE PRESIDENT, INFORMATION TECHNOLOGY

SUBJECT: 	 Audit Report - Vehicle Operations Information System
           (Report Number EM-AR-02-005)

This report presents the results of our audit of the Vehicle Operations Information
System (Project Number 01BS009IS000). This audit was a self-initiated review that
was included in our fiscal year 2002 Audit Workload Plan.

The audit disclosed Postal Service program management did not always follow
established Postal Service system development guidelines, policies, and directives
during requirements definition and that a key deliverable was not fully completed. As a
result, program management may select a commercial off-the-shelf package that does
not effectively secure sensitive information contained in the system. In addition,
program management cannot ensure that the development process was appropriately
monitored, established standards were followed, and system inadequacies were
brought to management’s attention. The Vehicle Operations Information System has
been cancelled due to budget constraints. Management agreed with our
recommendations and should the project be restarted, appropriate actions will be taken
to address the recommendations in this report. Management’s comments and our
evaluation of these comments are included in this report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert Batta,
director, Electronic Commerce and Marketing, at (703) 248-2100, or me at
(703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment
cc: 	James W. Buie
     James L. Golden
     Susan M. Duchek
Vehicle Operations Information System                              EM-AR-02-005



                                  TABLE OF CONTENTS
 Executive Summary                                                       i


 Part I

 Introduction                                                           1


    Background                                                          1

    Objectives, Scope, and Methodology                                  2

    Prior Audit Coverage                                                3


 Part II

 Audit Results                                                          4


     Systems Development Guidelines, Policies, and Directives           4


           Detailed Data Requirements                                   4

           Recommendation                                               5

           Management’s Comments                                        5

           Evaluation of Management’s Comments                          6


           Detailed Security Requirements                               6

           Recommendations                                              7

           Management’s Comments                                        7

           Evaluation of Management’s Comments                          7


           Independent Software Quality Assurance Representative        7

           Recommendation                                               8

           Management’s Comments                                        8

           Evaluation of Management’s Comments                          8


     Key Deliverable                                                    9

     Recommendation                                                    10

     Management’s Comments                                             10

     Evaluation of Management’s Comments                               10


     Additional Areas for Management Consideration                     11


           Decision Analysis Report Improvements                       11

           Formally Approved Requirements                              11


 Appendix A. Glossary                                                  13


 Appendix B. Management’s Comments                                     15




                                        Restricted Information
Vehicle Operations Information System	                                                                EM-AR-02-005



                                       EXECUTIVE SUMMARY
    Introduction 	                 There are five major stages in the systems development life
                                   cycle.1 Each stage has several process points that need to
                                   be accomplished to develop a successful project. This
                                   report presents our self-initiated audit of the feasibility study
                                   and requirements definition of the Vehicle Operations
                                   Information System. This is the fourth report in a series of
                                   Office of Inspector General (OIG) audits of Postal Service
                                   initiatives in the early phases of development. By early
                                   involvement in the process, the OIG can make
                                   recommendations to resolve issues in development prior to
                                   system implementation. Studies indicated that it is up to
                                   100 times more costly to make changes after a system is
                                   placed into production. Our objectives were to determine if
                                   Postal Service management: (1) followed sound systems
                                   development life cycle processes, (2) produced key
                                   deliverables, and (3) included key security features during
                                   systems development.

    Results in Brief	              Our review found program management did not always
                                   follow established Postal Service system development
                                   guidelines, policies, and directives during requirements
                                   definition of the Vehicle Operations Information System.
                                   Specifically, detailed data and security requirements were
                                   not defined, and an independent software quality assurance
                                   representative2 was not assigned. In addition, we found
                                   that a key deliverable was not fully completed during the
                                   concept phase.

                                   As a result, program management may select a commercial
                                   off-the-shelf package that does not effectively secure
                                   sensitive information contained in the system. In addition,
                                   program management cannot ensure that the development
                                   process was appropriately monitored, established standards
                                   were followed, and system inadequacies were brought to
                                   management’s attention. Further, program management
                                   could not ensure that the project initiative was justified,
                                   alternative solutions were properly analyzed, and the
                                   solution selected would satisfy the functional requirements.



1
  A systems development life cycle is a logical process by which systems analysts, software engineers, programmers,
and end users build information systems and computer applications to solve business problems and needs.
2
  The software quality assurance representative independently facilitates the development of defect free products that
meet all requirements and are delivered on time at the lowest possible cost.

                                                         i
                                              Restricted Information
Vehicle Operations Information System                                            EM-AR-02-005




 Summary of                    We concluded that the Vehicle Operations Information
 Recommendations               System development effort should remain in the planning
                               phase until completion of the recommended actions.
                               Specifically, we recommended management conduct a
                               feasibility study, risk assessment, business impact
                               assessment, appoint a software quality assurance
                               representative, and define detailed data and security
                               requirements before moving the project to the design phase.

 Summary of                    Management agreed with our recommendations. However,
 Management’s                  the Vehicle Operations Information System has been
 Comments                      cancelled due to budget constraints. For that reason,
                               management does not believe there is value in addressing
                               the specific recommendations contained in this audit report.
                               Should the project be restarted, appropriate actions will be
                               taken to address the recommendations contained in this
                               report. Management’s comments, in their entirety, are
                               included in Appendix B of this report.

 Overall Evaluation of         Management’s comments were responsive to our findings
 Management’s                  and recommendations. We agree with management that
 Comments                      should the Vehicle Operations Information System project
                               be restarted, appropriate actions will be taken to address
                               the recommendations contained in this report. However,
                               since the project has been cancelled due to budget
                               constraints, we recommend closure of all recommendations.




                                                   ii
                                        Restricted Information
Vehicle Operations Information System	                                           EM-AR-02-005



                                    INTRODUCTION
 Background	                   The Postal Service operates a large fleet of motor vehicles
                               used to move and deliver mail throughout the United States.
                               The Delivery Vehicle Operations Group has responsibility
                               for repair and maintenance of vehicles in this fleet. The
                               Vehicle Management Accounting System is currently used
                               to track the cost of vehicle operation and to schedule and
                               manage repair and maintenance operations. The Postal
                               Service decided to replace the Vehicle Management
                               Accounting System with the Vehicle Operations Information
                               System. The Postal Service planned that the new system
                               will use a commercial off-the-shelf software package to
                               provide information management for all vehicle repair and
                               maintenance operations, as well as tracking and analysis of
                               the total cost of vehicle operations.

                               The Vehicle Operations Information System will support
                               approximately 5,000 users. These users are located at
                               193 Postal Service vehicle maintenance facilities,
                               148 auxiliary vehicle maintenance facilities, Postal Service
                               Headquarters, area offices, and district offices. The system
                               would be used to manage repair and maintenance
                               operations and records for approximately 250,000 leased
                               and Postal Service owned motor vehicles. In addition, it
                               would help manage parts inventories with over
                               250,000 individual inventory line items system wide, and
                               would be used to manage fuel and oil inventories stored in
                               more than 1,000 bulk storage tanks.

                               When our review took place, the Vehicle Operations
                               Information System was at the end of the planning phase
                               undergoing review of commercial off-the-shelf software
                               packages.




                                                1
                                     Restricted Information
Vehicle Operations Information System                                                              EM-AR-02-005




    Objectives, Scope,              The purpose of this audit was to evaluate the Postal
    and Methodology                 Service’s Vehicle Operations Information System
                                    development effort in the concept and planning phases of
                                    the systems development life cycle. We reviewed the
                                    feasibility study and requirements definition process points
                                    of the development effort. Specifically, for these processes,
                                    we determined if Postal Service management: (1) followed
                                    sound systems development life cycle processes,
                                    (2) produced key deliverables, and (3) included key security
                                    features during systems development.

                                    To accomplish our first objective, we interviewed key project
                                    management personnel, including the program manager,
                                    program owner, developers, and the information system
                                    security officer. In addition, we reviewed the business
                                    needs statement, project plan, functional requirements
                                    document, and Postal Service security policies and
                                    directives. To accomplish our second objective, we
                                    interviewed key project management personnel and end­
                                    users to determine their involvement in the development
                                    effort. In addition, we reviewed the draft Decision Analysis
                                    Report, assessment study,3 and contract documents.
                                    Finally, to accomplish our third objective, we interviewed the
                                    information system security officer and reviewed appropriate
                                    requirements documents.


3
    The assessment study was conducted to analyze the current vehicle operations database environment.

                                                     2
                                          Restricted Information
Vehicle Operations Information System	                                          EM-AR-02-005




                               We conducted audit fieldwork at Postal Service
                               Headquarters and the processing and distribution center, in
                               Merrifield Virginia, from September through October 2001.
                               In addition, we also reviewed applicable laws and
                               regulations, as well as industry standards and best
                               practices. This audit was conducted from September 2001
                               through March 2002 in accordance with generally accepted
                               government auditing standards and included tests of
                               internal controls as were considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate. We did not
                               rely on computer-generated data to accomplish the
                               objectives of this audit.

 Prior Audit Coverage 	 Our September 29, 2000, report, State of Computer
                        Security in the Postal Service (Report Number IS-AR-00-
                        004) cited that: (1) many Postal Service managers were not
                        fully aware of their responsibilities for computer security;
                        and many Postal Service officials viewed computer security
                        as the sole responsibility of the information technology
                        office; (2) a lack of security awareness has resulted in less
                        than sufficient emphasis placed on planning and budgeting
                        for computer security; (3) policies and procedures for
                        computer security were nonexistent, outdated, or oftentimes
                        not implemented or followed; and (4) the National
                        Information Systems Security organization did not have
                        computer security enforcement authority, and was
                        understaffed, underfunded, and not visible postalwide.
                        Management agreed with Office of Inspector General’s
                        recommendations and indicated they are working to
                        address the issues.




                                                3
                                     Restricted Information
Vehicle Operations Information System                                             EM-AR-02-005



                                   AUDIT RESULTS
 Systems                      We found program management did not always follow
 Development                  established Postal Service systems development guidelines,
 Guidelines, Policies,        policies, and directives during requirements definition of the
 and Directives               Vehicle Operations Information System. Specifically,
                              detailed data and security requirements were not defined,
                              and an independent software quality assurance
                              representative was not assigned. As a result, program
                              management may select commercial off-the-shelf software
                              that does not effectively secure the sensitive information
                              contained in the system. In addition, program management
                              cannot ensure that the development process was
                              appropriately monitored, established standards were
                              followed, and system inadequacies were brought to
                              management’s attention.

                              The purpose of this audit was to evaluate the Postal
                              Service’s Vehicle Operations Information System
                              development effort in the concept and planning phases of
                              the systems development life cycle. Specifically, for these
                              processes, we determined if Postal Service management
                              followed sound systems development life cycle processes,
                              produced key deliverables, and included key security
                              features during systems development. Audit fieldwork was
                              conducted from September through October 2001.

                              Data requirements describe the following components of
                              data: relationship, storage, volume, definition or logical
                              representation, location, any interfaces, or security
                              requirements. In addition, data requirements define how
                              the data will migrate into the new system. Security
                              requirements describe all security restrictions such as
                              limiting access to hardware, software, network and data;
                              defining level of access by user such as read, write, and
                              execute; or whether the data will be confidential or available
                              for public use.

 Detailed Data                Program management defined data requirements, such as
 Requirements                 data descriptions, potential data elements, and the impact of
                              data requirements at a high level in the functional
                              requirements document. However, these requirements did
                              not contain the appropriate level of detail. In addition, some
                              data requirements were not defined at all, such as technical
                              information about dynamic and static data collection
                              requirements, subjects or other grouping mechanisms used


                                               4
                                    Restricted Information
Vehicle Operations Information System                                             EM-AR-02-005



                              by the system, description of the characteristics for each,
                              and the procedures for data collection.

                              The Postal Service Software Process Standards and
                              Procedures guideline states that data requirements are
                              necessary to satisfy the business need, as identified in the
                              business needs document. This guideline also states that
                              technical solutions should not be identified, until the
                              requirements document, which includes data requirements,
                              has been reviewed and approved by the end-users.

                              Program management told us that this occurred because
                              detailed data requirements should be developed in the
                              design phase, which would occur prior to selecting
                              commercial off-the-shelf software. Program management
                              explained that they solicited and reviewed commercial off-
                              the-shelf software to gain an initial understanding of the
                              software’s capabilities. They planned to adjust their data
                              elements to fit those established in the commercial off-the-
                              shelf software, thus reducing the high costs associated with
                              customizing the software. However, program management
                              also indicated there are unique Postal Service data
                              elements that cannot be changed. Program management
                              explained that the commercial off-the-shelf providers would
                              have to demonstrate their ability to customize their software
                              to meet these unique data requirements, prior to contract
                              award.

                              We concluded program management is taking a proactive
                              approach to select commercial off-the-shelf software. As a
                              consequence, program management reduced costs by
                              limiting the amount of customization to the commercial off-
                              the-shelf software.

 Recommendation               We recommend the senior vice president, chief technology
                              officer, ensure:

                                  1. Detailed data requirements are defined and included
                                     in the requirements document and ensure
                                     commercial off-the-shelf providers demonstrate their
                                     ability to meet these requirements, prior to contract
                                     award.

 Management’s                 Management agreed with the recommendation. However,
 Comments                     management has cancelled the Vehicle Operations
                              Information System due to budget constraints. Should the

                                               5
                                    Restricted Information
Vehicle Operations Information System                                             EM-AR-02-005



                              project be restarted, appropriate actions will be taken to
                              address the recommendation.

 Evaluation of                Management’s comments were responsive to our finding
 Management’s                 and recommendation. We recommend closure of this
 Comments                     recommendation.

 Detailed Security            Program management referenced applicable Postal Service
 Requirements                 security policies and directives in the functional
                              requirements document. We found that security
                              requirements, such as general controls, methods for
                              detecting errors and irregularities, responsibilities for the
                              protection of sensitive information, and protection against
                              system tampering were defined at a high level in these
                              security policies and directives. However, detailed security
                              requirements were not established to mitigate potential risks
                              and exposures associated with the site locations and
                              application.

                              The information security process states that the
                              management control process must address information
                              protection, internal controls, privacy, and security issues in
                              the original system design. The process requires a risk
                              assessment program to be performed, which evaluates
                              potential risks and exposures associated with both the site
                              and the application. The process also requires completion
                              of a business impact assessment, which addresses the
                              disclosure and unauthorized modification of sensitive
                              information, the unauthorized destruction or unavailability of
                              critical information, legal and regulatory requirements, and
                              prudent business practices. In addition, security controls
                              must be implemented to satisfy the mandatory security
                              requirements to protect sensitive, critical, and business­
                              controlled information resources.

                              Detailed security requirements were not established
                              because program management had not followed Postal
                              Service guidelines to ensure security requirements were
                              defined. Specifically, program management had not
                              completed a risk assessment and business impact
                              assessment which are key components to developing
                              detailed security requirements. As a result, program
                              management may select commercial off-the-shelf software
                              that does not effectively secure the sensitive information
                              contained in the system.



                                               6
                                    Restricted Information
Vehicle Operations Information System	                                                 EM-AR-02-005



 Recommendations               We recommend the senior vice president, chief technology
                               officer, ensure:

                                   2.	 A risk assessment is completed, which addresses
                                       information protection, internal controls, privacy, and
                                       security issues.

                                   3.	 A business impact assessment is completed, which
                                       identifies the sensitivity and criticality levels of Postal
                                       Service information resources that will reside in the
                                       Vehicle Operations Information System.

                                   4.	 Detailed security requirements are defined and
                                       included in the requirements document, which
                                       mitigate the risks identified during the risk
                                       assessment and business impact assessment.

 Management’s                  Management agreed with the recommendations. However,
 Comments                      management has cancelled the Vehicle Operations
                               Information System due to budget constraints. Should the
                               project be restarted, appropriate actions will be taken to
                               address these recommendations.

 Evaluation of                 Management’s comments were responsive to our finding
 Management’s                  and recommendations. We recommend closure of these
 Comments                      recommendations.

 Independent Software          Program management did not appoint a key development
 Quality Assurance             team member. Specifically, the program manager did not
 Representative                have a software quality assurance representative.

                               The Postal Service Software Process Standards and
                               Procedures guideline recommends that at project initiation a
                               software quality assurance representative should be
                               appointed to each project. The guidelines also recommend
                               that the software quality assurance representative perform a
                               review of the requirements document, prior to the end-users
                               review.

                               The engineering software process improvement guideline
                               states that the product assurance organization is
                               responsible for ensuring software products meet customer’s
                               quality expectations throughout the systems development
                               life cycle. Specifically, product assurance validates and



                                                7
                                     Restricted Information
Vehicle Operations Information System                                            EM-AR-02-005




                              verifies field worthiness of software, provides support during
                              software testing, performs independent audits, and monitors
                              process compliance.

                              An appointment was not made because program
                              management did not follow existing Postal Service policies
                              and guidelines or establish an alternate system of controls.
                              As a result, program management cannot ensure that the
                              development process was appropriately monitored,
                              established standards were followed, and system
                              inadequacies were brought to management’s attention.

 Recommendation               We recommend the senior vice president, chief technology
                              officer:

                                   5. Formally appoint an independent software quality
                                      assurance representative to the remaining system
                                      development tasks.

 Management’s                 Management agreed with the recommendation. However,
 Comments                     management has cancelled the Vehicle Operations
                              Information System due to budget constraints. Should the
                              project be restarted, appropriate actions will be taken to
                              address the recommendation.

 Evaluation of                Management’s comments were responsive to our finding
 Management’s                 and recommendation. We recommend closure of this
 Comments                     recommendation.




                                               8
                                    Restricted Information
Vehicle Operations Information System                                              EM-AR-02-005




 Key Deliverable              Program management did not perform all the aspects of a
                              feasibility study for the Vehicle Operations Information
                              System. We found that the development team conducted an
                              assessment study of the current system, which identified the
                              strengths and weaknesses of the local area network and
                              mainframe components of the existing system. However,
                              they did not evaluate alternative solutions to ensure
                              established objectives and business needs were achieved.

                              The Postal Service Software Process Standards and
                              Procedures guideline states that a feasibility study should be
                              prepared to justify the project initiative, analyze alternative
                              solutions, and recommend a specific course of action. This
                              guideline also provides a feasibility study template, which
                              addresses the scope, summary, business need, alternative
                              solutions, cost/benefit analysis, alternatives eliminated,
                              conclusion and recommendation, and exhibits.

                              Industry best practices recommend that each alternative be
                              evaluated to ensure that the organization has the capability
                              to manage the technology, time and cost estimates can be
                              supported, and costs and benefits are identified. In addition,
                              impact studies should be conducted to measure the current
                              and anticipated cost savings and revenue increases, as well
                              as provide insight into the benefits to be delivered.

                              The Postal Service F-66 Handbook, General Investment
                              Policy requires the project to be properly analyzed (that is all
                              viable alternatives considered, the impact of the investment
                              properly evaluated, and the backup documentation
                              adequately supports the investment) and appropriate
                              concurrences for major assumptions have been obtained.

                              The feasibility study was not fully completed because
                              program management believed the assessment study met
                              the needs of a feasibility study. However, our review of the
                              assessment study disclosed it did not contain all the
                              required elements of a feasibility study. As a result, program
                              management could not ensure that the project initiative was
                              justified, alternative solutions were properly analyzed, and
                              the solution selected would satisfy the functional
                              requirements.




                                               9
                                    Restricted Information
Vehicle Operations Information System	                                            EM-AR-02-005




 Recommendation	               We recommend the senior vice president, chief technology
                               officer:

                                    6. 	Complete the remaining elements of the feasibility
                                        study on Vehicle Operations Information System
                                        prior to obtaining funding approval.

 Management’s 	                Management agreed with our recommendation. However,
 Comments	                     management has cancelled the Vehicle Operations
                               Information System due to budget constraints. Should the
                               project be restarted, appropriate actions will be taken to
                               address the recommendation.

 Evaluation of                 Management’s comments were responsive to our finding
 Management’s                  and recommendation. We recommend closure of this
 Comments                      recommendation.




                                               10
                                     Restricted Information
Vehicle Operations Information System	                                             EM-AR-02-005




 Additional Areas for          During our review of the Vehicle Operations Information
 Management                    System, we also noted the following conditions:
 Consideration

 Decision Analysis 	           Program management indicated that they are in the process
 Report Improvements	          of finalizing the Decision Analysis Report for the Vehicle
                               Operations Information System. During our review of the
                               draft Decision Analysis Report, we found that the following
                               areas of the report could be improved:

                                   •	 A measure to support the statement about the second
                                      and third alternatives not being cost prohibitive.

                                   •	 A discussion on the need for protection of privacy of
                                      data.

                                   •	 A discussion on the impact and cost of internal
                                      control requirements.

                                   •	 A risk management section, which explains how the
                                      funds will be spent. This may include a general
                                      discussion of how the Vehicle Management
                                      Accounting System and the Vehicle Operations
                                      Information System requirements have been
                                      prioritized.

                                   •	 Discussion as to staging of the requirements and
                                      bringing modules into production. Replacing all the
                                      functionality at once may be too much to accomplish
                                      at one time. It may make sense to discuss the basic
                                      Vehicle Management Accounting System
                                      requirements in the new system first, then the new
                                      improvements.

                                   •	 Identification of the accounting interfaces or the basic
                                      accounting functions of the Vehicle Management
                                      Accounting System that will be present in the Vehicle
                                      Operations Information System.

 Formally Approved             Program management indicated that the requirements
 Requirements                  document does not include a sign-off sheet or any indication
                               by Postal Service management that the requirements were
                               formally accepted. The program manager and end users
                               verbally indicated that they are satisfied all requirements are
                               included in the requirements document. However, having


                                               11
                                     Restricted Information
Vehicle Operations Information System                                           EM-AR-02-005



                              all responsible parties sign the document would verify the
                              requirements have been formally accepted and approved.




                                              12
                                    Restricted Information
Vehicle Operations Information System                                            EM-AR-02-005



                            APPENDIX A. GLOSSARY
Term                      Description

Assessment Report         The assessment study was conducted to analyze the current
                          vehicle operations database environment.

Business Impact           The business impact assessment addresses the disclosure and
Assessment                unauthorized modification of sensitive information, the
                          unauthorized destruction or unavailability of critical information,
                          legal and regulatory requirements, and prudent business practices.

Commercial Off-the-       Software available through lease or purchase in the commercial
Shelf Software            market from an organization representing itself to have ownership
                          of marketing rights in the software.

Data Requirements         Data requirements describe the data, data relationships, data
                          storage, volume of the data, definitions or logical data
                          representation, where data may currently be located, any data
                          interfaces, or security requirements of the data. In addition, data
                          requirements define how the data will be migrated into the new
                          system.

Decision Analysis         The Decision Analysis Report is a document developed by the
Report                    requiring organization to justify a project investment and to assist
                          the approval authorities in making decisions concerning the use of
                          Postal Service funds.

Dynamic Data              Dynamic data is data that can be changed.

Feasibility Study         The feasibility study is a document that justifies the project
                          initiative, analyzes alternative solutions, and recommends a
                          specific course of action. The feasibility study typically includes
                          scope, summary, business need, alternative solutions, cost/benefit
                          analysis, alternatives eliminated, conclusion, recommendation, and
                          exhibits to be addressed.

General Controls          General controls are the structure, policies, and procedures that
                          apply to an entity’s overall computer operations. They create the
                          environment in which application systems and controls operate.




                                              13
                                    Restricted Information
Vehicle Operations Information System                                             EM-AR-02-005



                 APPENDIX A. GLOSSARY (CONTINUED)
Impact Studies            Impact studies measure the current and anticipated cost savings
                          and revenue increases that organizations believe have been
                          created by their investment in the proposed solutions, as well as
                          provide insights into the mechanisms by which the benefits are to
                          be delivered.

Risk Assessment           A risk assessment evaluates potential risks and exposures
                          associated with both the site and the application, such as
                          information protection, internal controls, privacy, and security
                          issues.

Security                  Security requirements describe all security restrictions such as
Requirements              limiting access to hardware, software, network and data; defining
                          level of access by user such as read, write, and execute; or
                          whether the data will be confidential or available for public use.

Software Quality          The software quality assurance representative independently
Assurance                 facilitates the development of defect free products that meet all
Representative            requirements and are delivered on time at the lowest possible cost.

Static Data               Static data is bound to memory cells before program execution
                          begins and remains bound to those same memory cells until
                          program execution terminates.

Systems                   A systems development life cycle is a logical process by which
Development Life          systems analysts, software engineers, programmers, and end
Cycle                     users build information systems and computer applications to solve
                          business problems and needs.




                                              14
                                    Restricted Information
Vehicle Operations Information System                        EM-AR-02-005



              APPENDIX B. MANAGEMENT’S COMMENTS




                                              15
                                    Restricted Information
